No.
In the

Supreme Court of the United States
CODY JAMES MARTINEZ, Petitioner
v.
STATE OF ARIZONA, Respondent
On Petition for Writ of Certiorari to the
Supreme Court of Arizona

Certificate of Service

Pursuant to Rule 29.4 of this Court, I hereby certify that on this date,
one copy of Petitioner’s Motion for Leave to Proceed In Forma Pauperis and
one copy of the Petition for Writ of Certiorari were delivered to:
Lacey Alexandra Stover Gard
Arizona Attorney General's Office
Capital Litigation Section
400 W. Congress, Suite S-315
Tucson AZ 85701 B1367
(520) 628-6520
lacey.gard@azag.gov

On this date, the original and ten copies of Petitioner’s Motion for
Leave to Proceed In Forma Pauperis and the Petition for Writ of Certiorari
were mailed to:
UNITED STATES SUPREME COURT
Clerk’s Office
1 First Street, N.E.
Washington, DC 20543
Dated March 22, 2021.
s/S. Jonathan Young
S. JONATHAN YOUNG
Post Office Box 42245
Tucson, Arizona 85733-2245
(520) 795-0525
jon@williamsonandyoung.com
Counsel of Record for Petitioner

2

